T

H
■»

,»

SupF^cHnHTur
No.

£\^0

filed

JUL - 9 2021
HE!gE_OFTjjEClpqK

IN THE

Supreme Court of the United States

Abel Belmonte
Petitioner,
V.
City of Dallas
Respondent.
On Petition for a Writ of Certiorari to the
United States Northern District of Texas and
US Court of Appeals for the 5th Circuit

PETITION FOR A WRIT OF CERTIORARI

Abel Belmonte
427 N. Patton Ave.
Dallas, Texas 75203
(214) 907-2800
Abel.BelmonteO@gmail.com
ProSe

1

RECEIVED
JUL 2 2 2021

? „

/

(i)
QUESTIONS PRESENTED
1, Whether under the!4 amendment and in addition to title 7 and
42 U.S.C.§200e-16(a) (race, color, religion, sex or national origin)
a claim on, and/or could be brought against the City of Dallas
in claiming it has sovereign immunity?
2. Whether the Judiciary has authority to overrule the 14th
amendment in addition to title 7 and 42 U,S.C.§200e-16(a) (race,
color, religion, sex or national origin) on, and/or basis of
sovereign immunity?

2

t
T ..

/

(ii)
PARTIES TO THE PROCEEDING
Abel Belmonte was the petitioner.
The respondent is The City of Dallas.

3

TABLE OF CONTENTS

Question presented.................................................
Parties................... ........... .................................... .

n

Table of Contents.......... ..........................................

in

Petition for Writ of Certiorari.................................

Pg.l

Statement.............................................................

...... PS-10

Back ground................................................... .

.......... pg. 16

Opinions and Orders....................................... .

...... Pg- 32

Jurisdiction...... ................ .................. ...................

.........PS-25

Statutory and Constitutional Provisions Involved

........PS-18

Reasons for Granting the Writ...... ....................
1. The decisions of the North District Court of Texas and 5lh circuit Court of
Appeals. Whether the courts ruled in favor of Defendant on basis of
sovereign immunity when it conflicts with most importantly plaintiff's 14th
amendment right in addition to discrimination under title 7 and statues.
2. Conclusion....................... ............. ................ .............................

4

APPENDIX
United States Court of Appeals for the Fifth Circuit of Appeals for the Fifth Circuit
Appeal from the United States District Court for the Northern District of Texas USDC
No. 3:19-CV-2656 filed 5.04.21 Doc 35 on Northern District of Texas
Order of the United States Court of Appeals for the Fifth Circuit
COURT ORDER granting jurisdictional review to dismiss appeal lack of jurisdiction [
9547362-2]. Mandate issue date is 05.04.21 Entered 04.12.21. Case Number 0:2G21crl0163
United States Court of Appeals for the Fifth Circuit Appeal from the United States
District Court for the Northern District of Texas USDC No. 3:19-CV-2656 Filed 4.12.21
In the United States District Court for Northern District of Texas Dallas Division
Findings Conclusions, and Recommendation of the Recommendation of the United
States Magistrate Judge Filed 6.03.20 Doc 18
Order of the Texas Northern District Court
Order Accepting Findings, Conclusions And recommendations of the United States
Magistrate Judge Filed 07.07.20 Doc 21
Order of the Texas Northern District Court
ORDER ACCEPTING 30 FINDINGS, CONCLUSIONS, AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE Filed 02.09.21(ENTERED 5.11.21)
Case number 3:19-cv-02656~G-BK Doc 30

Order of the Texas Northern District Court
Order Accepting 36 Findings, Conclusions, and Recommendation of the United States
Magistrate Judge Filed 5.10.21 Doc 36

United States District Court Northern District Court of Texas Dallas Division
Judgement Filed 5.10.21 Doc 37

5

Table of Authorities
Statues

42 U.S.C § 200-e 2(a), 5 U.S.C § 7116 (1), (2), b (4).
Texas Labor Codes.

§21.05, 21.110,21.051,61.019, and 61.014

Cases
Perez vs. FBI
Griggs vs. Dukes Power Co.
Lily Ledbetter vs. Good Year Tire Co.
Bernhardt v. Interbank of New York, 18F Supp2d218(E.D.N.Y 1998)

Other Authorities
14th amendment of the United States Constitution

6

INDEX OF AUTHORTIES
14th
pg.9,20,23,24

amendment
Ledbetter V. Goodyear tire & Rubber Co. Inc. No. 05-1074
2007 WL (supreme Court of the United States May 29, 2007)

Available at
https://l.next.westiaw.com/Document/lf60eab020dcflldcafc6849dc347959a/View/FullText.ht
ml?originationContext=typeAhead&transitionType=Default&contextData=(sc. Default)

pg.19

Disparate impact discrimination: american
oddity or internationally accepted concept
RC Hunter, EW Shoben - Berkeley J. Emp. & Lab. L., 1998 - HeinOnline
https://scholars.law,unlv.edu/cgi/viewcontent.cgi?article=1587&context=facpub

Pg-14
Griqqs v. Duke Power Co.
401 US 424, 91 S. Ct. 849, 28 L. Ed. 2d 158 - Supreme Court, 1971 - Google Scholar
https://scholar.google.com/scholar case?case=8655598674229196978&q=allied+aviation+nati
onal+origin+discrimination+Mar+2008+black+and+Hispanic+fuel+service+worker+claimed+disc
rimination&hl=en&as sdt=6,44

pg.27,28,29

Griqqs v. Duke Power Co . 401 U.S. 424. 91 S. Ct. 849, 28 L. Ed. 2d 158, 1971 U S. LEXIS 134, 3
Fair Empl. Prac. Cas. (BNA) 175, 3 Empl. Prac. Dec. fCCHI P8137
https://advance.lexis.com/search/?pdmfid=1000516&crid=a9932e31-a068-4083-8b41182dl827a7c8&pdsearchterms=griggs+v.+duke+power+co.%2C+401+u.s.+424&pdtypeofsearch
=searchboxclick&pdsearchtype=SearchBox&pdstartin=&pdpsf=&pdqttvpe=and&pdquervtempl
ateid=&ecomp=x7d59kk&earg=pdsf&prid=5c26aa98-8c42-43el-a701-9alflelalcl7

https://advance.lexis.com/api/permalink/295bl394-d23f-479f-b446-8735e8353f96/7context-1000516
......................................................................................................................................... pg27,28,29
Mathew Bender. Employment in Texas. A Guide To Employment Laws, Regulations. And
Practices (5th ed. 2019) Employment discrimination §7-8, 7-78 [a.]

7

pg.30

Richard M. Alderman, The lawyer, Guide to The Texas Deceptive trade practices Act(2018)
Sec 17.46. Deceptive trade Practices Unlawful C-3

pg. 30

English First legislation: Potential national origin discrimination
LJ Romas - Chicano-Latino L. Rev., 1991 - HeinOniine
https://escholarship.org/uc/item/45z8nlcv
Pg29

Does My Spanish Bother You-Language Based Discrimination as
a Pretext for National Origin Discrimination
MM Pacheco - Chicano-Latino L. Rev., 1991 - HeinOniine
https://escholarship.org/uc/item/0058tlvv
pg29

The equal protection of the laws
J Tussman, J TenBroek - Calif. L. Rev., 1948 - HeinOniine
https://pdfs.semanticscholar.org/978e/3625e904832e6c54444a85e8df00bde99f58.pdf
pg.24

Franze, Texas Employment Law Revision 18 Volume 2 (2017)

Pg32

Perez v. FBI, 707 F. Supp. 891. 1988 U.S. Dist. LEXIS 12431. 47 Fair Empl. Prac. Cas. (BNA) 1782,
51 Empl. Prac. Dec. (CCH) P39.219
https://advance.lexis.com/document/?pdmfid=1000516&crid=c42453ca-a7ce-41be-994d9292ddba4b47&pddocfullpath=%2Fshared%2Fdocument%2Fcases%2Furn%3Acontentltem%3A
3S4N-7R20-003B-61RD-0000000&pdcontentcomponentid=6415&pdshepid=urn%3Acontentltem%3A7XWN-83Cl-2NSD-P2F200000-00&pdteaserkev=sr0&pditab=allpods&ecomp=gxdsk&earg=sr0&prid=ad4d8f73-2d5e4el7-b5a8-7a76e28ea611

pg20.21

8

Petition For Writ of Certiorari

The case presents the Court with an opportunity to continue providing
Coherence and clarity of our constitution of the United States of America.
Regarding plaintiffs violation of his 14th amendment. Defendant has been
claiming Sovereign immunity against in what plaintiff believes to be one of his
most important argument is his 14 th amendment. In which under the 14th
amendment plaintiff is protected. Under 14 amendment, Defendants practices
and/or policies violated plaintiffs 14 amendment right, under the equal
protection clause. Also abridged the privilege or immunity of plaintiff. He did
not have the liberty of going home when he had to stay, because he was a
9

Spanish Speaker even though he was not being paid for it and at times, would
not have been his turn to stay but had to stay because he was Spanish Speaker. In
which both lower courts have undermined. In addition, to the Unacceptable
discrimination in the workplace in our country, plaintiff seeks clarity and
coherence from this court. Plaintiff ask respectfully for the United States
Supreme Court, to address his claim, because plaintiffs claim rises out of a
Federal question and therefore believes, it is proper for this court to hear his case.
Plaintiff believes in addition that this is also a problem all over the country,
including both the public and private sector and should be addressed. Plaintiff
believes he won't be the last victim of these circumstances of discrimination in
the work place in our country. If this is left unaddressed. It is not just an issue
for those who, speak Spanish, but it is an issue in all languages that help our
country. There is a saying in the city I live in, where we say together, we do it
better. I believe today we can do it, better in our country with the help of the
United States supreme court Justices. Plaintiff asks respectfully the United States
Supreme court to Reverse the Northern District Court of Texas Findings,
Conclusions, and Recommendations. In addition to the Reverse and/ or address
the United States 5th circuit court of appeals for the proper jurisdiction for this
case. Since this case is rising out of Federal claim of the Law.

10

Statement of the case
Plaintiff would like the include the following racial injustices that the Defendant City of Dallas

policy and/or practices has and/or had in the workplace. During the time plaintiff worked there,

plaintiff was hired with a token of integration in which Martin Luther King Jr. and Malcom x

would perhaps, consider what the issues are in the Defendant’s work environment. The

Defendant city of Dallas has and/ or has what plaintiff refers to the New Jim Crow laws. Instead

of separate but equal. Plaintiff suffered of together but treated differently. Plaintiff was never

paid for his language skills for Approximately 9 years. In addition, plaintiff was forced to stay on

the same shift in certain years because of his Race and/or National origin, and was not able to

move to a different shift. In addition, plaintiff would have to stay over every time if a Spanish

speaker was needed on the next shift and plaintiff was the only Spanish speaker on his shift. If

plaintiff was not Mexican, Mexican-American or of Mexican decent and was Anglo American.

This would have never occurred. In addition, plaintiff also has Mexican citizenship. Plaintiffs

ancestors were from a different origin. Also, if it was not because of plaintiffs’ race, name and/or

color, and ethnic background, the situations would not have occurred to plaintiff. In addition,

11

defendant knowingly continued to discriminate plaintiff threw out the years. Hypothetically, or

possibly what if plaintiff failed the Spanish test by the city of Dallas. Plaintiff was never given

his Spanish test scores. Perhaps, plaintiff failed the Spanish test given by the city of Dallas.

Therefore, perhaps maybe Defendant is trying to cover itself from the bigger picture. There

is absolutely without a doubt that defendant discriminated plaintiff based on how he looks or

what his name is and/or what his ethnic background. This didn’t occur to other similar situated

ethnic groups. Plaintiff also had to keep up with everyone else’s activity even though it was very

time consuming to translate specially in situations where the prisoners wore intoxicated. It made

it much harder on plaintiff to please the Defendants expectations and keep up with everyone

else’s activity. If a co-worker did not speak Spanish, plaintiff would have to stop with the

booking process of his prisoner and go translate for a co-worker, supervisor, or an internal

customer (police), (fire department). And this would put more pressure on plaintiff to work faster

to keep up with everybody else’s activity. These situations occurred very often year after year.

Defendant created a hostile work environment for plaintiff and was so outrageous to plaintiff that

this is still occurring in our country after the 1964 civil rights act. Plaintiff believed the country
12

had changed completely while attending school when he was kid. Plaintiff believed that our

country as Dr. Martin Luther king describes in his I have a dream speech, “that this country will

live up to its true meaning of its creed”. However, plaintiff sees we are far from that right now. If

the defendant city of Dallas can not live up to its true meaning in racial justice in the workplace.

Unfortunately, that reflects our nation and therefore our nation is not living up to its true

meaning of its creed. In which Defendant has not even offered plaintiff an apology. Defendant’s

City of Dallas practices and/or policies treated plaintiff more harshly because of plaintiffs’ race,

color and national origin. Plaintiff recalls a year in which plaintiff wanted to go to another shift

other that was not the night shift 1 lpm-7am that plaintiff was currently in that year,

because it would have accommodated plaintiffs schedule in attending college. That would

interfere with plaintiffs way of sleeping. Defendants practices were interfering with

plaintiffs lively hood. In addition, in plaintiffs’ earlier years and believed to the end it was a

much busier work shift in the night shift, 11 -7am, that plaintiff was in. Also, more than any other

shift at the time. However, Defendant did not allow plaintiff to go to a different shift because he

was a Spanish speaker. Plaintiff also recalls a year when a supervisor wrote a comment in his
13

I

♦
I

2

>

evaluation in regard to his working speed. Plaintiff believes he recalls that year he had the

second most book ins of prisoners in the entire jail and not just his shift. The person that had the

most book ins had less entered police reports in the system. Speaking Spanish was time

consuming as mentioned before plaintiff had to stop what he was doing to translate, and plaintiff

would be put in a situation to play catch up to keep up with the non-Spanish speakers. Plaintiff

was never compensated for it or given a higher evaluation because of plaintiffs Spanish skills.

Defendant created plaintiffs work environment very hostile and much harder on plaintiffs

protected class. In addition, hypothetically, if plaintiff would have received his Spanish Pay.

Defendants acts consisted of desperate impact, desperate treatment, and has an adverse effect on

plaintiff. These circumstance that defendant put plaintiff, created an extremely and outrageous

hostile work environment especially considering the discrimination occurred for approximately 9

years.

Defendants, practices interfered with plaintiffs lively hood. Defendants practices

discriminated plaintiff based of race and national origin discrimination. Plaintiff is part of a

14

♦

\
1

p

protected class in which Hispanic, Mexican, Mexican American and because of this, Defendants

practices treated him less favorable. Therefore, Defendant committed disparate treatment acts

against plaintiff.

As mentioned before Defendant new about the discrimination because plaintiff informed its

superiors. In addition, see. Disparate impact theory. As described in Disparate Impact

Discrimination American Oddity of Internationally Accepted Concept.” This theory of

discrimination or adverse impact discrimination refers to the disproportionate exclusion of

individuals on a protected basis, such as race or gender. Also includes on for selection in

plaintiffs’ case he was treated less favorable. There was disproportionate treatment on plaintiffs’

group in other words because of his race and/or national origin. Also mentions an aptitude test.

In plaintiffs’ case there was a Spanish test that could be referred to as a special talent. In which

turned out to be unfortunately for plaintiff in Defendants work environment. “The US. Supreme

court held in Griggs V. Duke Power Co. that disparate impact discrimination in employment is

covered by Title 7 of that Act. Defendant Knew it discriminated plaintiff because plaintiff

15

informed his supervisor that he was being discriminated. In addition, he informed other superiors

threw out the years about his Spanish pay. Including HR. In which with there credentials should

have known of the discrimination that was occurring to plaintiff. In addition, it was so

outrageous that they cannot have any excuse.

Back Ground Facts

1. Plaintiff is a Hispanic male.
2. Plaintiff Worked for Defendant as a Detention officer in the Dallas Marshals Office.
3. Plaintiff began working for Defendant in November 19, 2008.
4. Plaintiff performed duties as a detention officer but, was also a Spanish translator
for customers (prisoners), Co. workers, and internal customers (Police Agencies).
Also, plaintiff would have to translate the incident reports for Spanish speakers
(Prisoners) if he or she was having a medical emergency or if he or she wanted to

16

report something. At times, there were some prisoners that were belligerent
throughout the years and plaintiff would step in to deescalate the situation. There is
a pre-condition for the Dallas Marshal’s office to have a Spanish speaker without a
Spanish speaker in the jail it cannot function.
5. Plaintiff also informed Sgt. Cortez of the discrimination that was occurring to
Plaintiff. Threw out the years plaintiff would ask about language skills pay.
Plaintiff would go threw the chain of command and HR. and he was never given his
Spanish pay.
6. Defendant’s excuses have been a budget issue and that plaintiffs pay rate was
higher than his base rate. Plaintiff, also on top of him being bilingual had a
Bachelor of Science in Criminal Justice. In which not even a lot of deputy’s or
some Sergeants had. Plaintiff believes there was also bad mismanagement as far as
priorities in managing the money at the Dallas Marshal’s office. For instance, the
Marshal’s office preferred to open an additional Chiefs position and created
an additional meeting room. When there was already a meeting room, Instead of

paying plaintiff for his Spanish language skills pay, first in which there was

a precondition need for Spanish translators.
7. Furthermore, if there was not a Spanish speaker on the next shift. Plaintiff would
have to stay over. Even though it was not his turn to stay.
8. Every year the Dallas Marshal’s office had a shift bid. Plaintiff recalls requesting to
go to another shift and was denied because he was Spanish speaker, even though
plaintiff had more seniority than another individual that was an English only

17

speaker in the other shift. Plaintiff had to stay on the night shift for another
entire year or years based on their policy or/ practice, to see if there would be an
opportunity that he may gain more seniority than other Spanish speakers.
9. To include, during that time, plaintiff wanted to leave the night shift to work on
evenings. One of the main reasons for plaintiff was that night shift was the busiest
shift by far in comparison to any other shift.
10. Due, to being a Spanish speaker plaintiff would have to stayover and work a second
shift, even though it was not plaintiffs turn to stay over.
11. Defendant also had a mandatory list to make Spanish speakers stay over.
12. There was never no indication on plaintiffs check stubs that he was being paid for
language skills. Also, nor did he receive retro pay for his language skills.
Additionally, plaintiff never received a parameter report like other employees in
the city. In which if plaintiff was receiving language skills pay it would indicate it,
in there.
13. However, Defendant did give plaintiff a Spanish test threw a phone call to
determine how much to pay plaintiff based on his Spanish skills. In which
constituted an agreement between the Defendant and Plaintiff. Defendant still did
not pay plaintiff for his language skills pay.

14. On November 15, 2017 plaintiff resigned.
15. On Jan 3, 2018 plaintiff filed a complaint of discrimination based on title 7 of the
civil rights act with the EEOC charge No. 450-2018-01881 and No.451-2019-03146
16. On August of 2018 plaintiff filed a complaint with the Department of Labor.
17. On August of 2018 plaintiff filed a complaint with the Texas Workforce
Commission (TWC).
18

Statutory and Constitution provisions Involved
(1) race and national origin employment discrimination under Title VII and the
Texas Labor Code, (2) violation of the 14th Amendment Equal Protection Clause,
(3) violation of the Lilly Ledbetter Act, (3) breach of contract, and (4) violation of
the Federal Service Labor Management Relations Act ("FSLMRA") and Chapter
61 of the Texas Labor Code (the "Payday Act"). (Doc. 3 at 5-7). Title VII, breach of
contract, FSLMRA, and Payday Act claims (Doc. 18); (Doc. 21.) Plaintiff then filed
his amended complaint, (Doc. 22), and included a new claim for a DTPA
violation. This motion followed. Plaintiff, a Hispanic male and Mexican national,
that while working at Defendant's jail, he was required to perform additional
tasks because he spoke Spanish but was not compensated for the extra work.
(Doc. 22 at 3-4). Plaintiff had to translate for Spanish speaking prisoners and
work nights and extra shifts because Defendant required every shift to have at
least one Spanish-speaker, and he was Spanish-speaker. (Doc. 22 at 4.) Though
Plaintiff sought additional pay for his linguistic skills and extra work, he never
received any. (Doc. 22 at 9.) Court made an error especially in denying plaintiff's
claims under the Lily Ledbetter Act. The reason for the Lily Ledbetter Fair Pay
Act was because it was a bill that was passed and signed by President Obama to
help fight against discrimination in the work environment. President Obama
19

quotes. "The Last thing they can afford is losing part of each month's paycheck
to simple and plain discrimination." "So, signing this bill today is to send a clear
message that making our economy work means, making sure it works for
everybody, that there are no second-class citizens in our workplaces and that it's
not just unfair and illegal." "It's bad for business to pay somebody less, because
of their gender or their age or their race or their ethnicity, religion, or disability.
"It's about how our laws effect the daily lives and the daily realities of people."
see. "Lilly Ledbetter Fair Pav Act Summary"
https://www,youtube.com/watch?v=Zsmla9CrtYc

In reference to the lily Ledbetter act Fair Pay Restoration Act that was passed
and signed off by President Obama was to prevent facially discriminating
practices or policies in our country's work environment. Lily Ledbetter was
paid less because of how she appeared. She was a women and was
discriminated simply because she was bom a female. As with plaintiff, just
because he was bom Hispanic, Mexican-American he was facially
discriminated with Defendants practices and/or policies. Also, with in the Lily
Ledbetter act. She was allowed to receive her retro pay regardless of any
statute of limitations. In plaintiffs' case he also was facially discriminated and
did not receive language skills pay and was utilized as a Spanish speaker. As

20

mentioned, before he was never given his Spanish test scores. This all occurred
because of plaintiffs' race. If plaintiff would have been white Anglo this would
have never occurred, and plaintiff would not be seeking racial justice for
himself. Plaintiff Implied this Act in his original petition and continues to ask
the court respectfully to allow plaintiff to be granted relief under this act in
addition to the other damages that Defendant caused to plaintiff.
https://www. youtube. com/watch?v=4zXUZb6AM7w&t=l Os

The Northern District of North Texas made an extreme error in dismissing
plaintiff's fourteenth amendment, it's above any federal law, state law, and etc.
and should be upheld and protected. In addition, it should overrule any law
based of its face. To include, it ties in with plaintiff's claims in defendants work
environment as explained in the petition. Also, plaintiff implemented the 14th
amendment, in the original petition. As mentioned in the Amended petition see.
Perez vs. FBI in which the court favored Perez regarding the 14th amendment. " .
"Unfortunately, this does not mean that the Bureau is incapable of violating the
provisions of Title VII. No one person is perfect, nor is any agency above
violating the law of our land." Plaintiff implemented it and applies same as it
does to bureau same to the Defendant City of Dallas and/or Dallas Marshals
Office. In plaintiff's words the City of Dallas/and or the Dallas Marshals office is
21

not above the law or law of our land. Also see. Perez v. FBI. The court finds that
on the basis of Hispanic surname or other selection based on the agents national
origin, the Bureau singled out agents to take the language skills test and made
assignments significantly affecting their conditions of employment an adverse
manner. The Court Further finds that no similar presumption attached to nonHispanic agents." [**45]The Court finds by the great weight and preponderance
of the evidence that (l)Hispanic agents suffer disparate treatment in the
conditions of their employment; and(2) these conditions affect their promotional
opportunities in an adverse manner. The decision in this case that policies and
practices of the FBI violated Title VII with respect to their treatment of Hispanic
agents was a most difficult decision for this Court to reach. The FBI deserves the
well earned respect of the United States citizens, It is as true today as at any time
in the history of the Bureau that persons of discipline, character and ability
should aspire to its ranks. The Bureau is arguably the best law enforcement
agency in the world. Unfortunately, this does not mean that the Bureau is
incapable of violating the provision of Title VII. No one person is perfect, nor is
any agency above violating the law of our land." In plaintiffs' case he was unable
to promote to different shift under defendants practices and/or polices and
suffered disparate treatment conditions along without getting his language skills
pay. That is If plaintiff had any Language skills because he was never given his
22

test scores. In addition, in which a cause breach of contract in which both parties
agreed to and in addition because it was also a contract that was implied.

Plaintiff implemented the following cause of actions in the Original petition and asks
the United States Supreme court to address 5 th Circuit Court of Appeals for proper
jurisdiction and respectfully to reverse the Northern District Court of Texas Findings,
Conclusions, and Recommendations.

I. First Cause of Action- Racial Discrimination
18. Plaintiff incorporates each of the forgoing paragraphs.
19. Defendant discriminated against Plaintiff because of Plaintiffs race
(Hispanic),Mexican, Mexican-American and punished plaintiff because
he spoke Spanish by making him stay over an extra shift without pay of
the Spanish skills when it was not his turn to stay over and not letting
him go to a preference shift even though he had more seniority than a
Non- Spanish speaker because of Plaintiffs race and national origin.
Plaintiff was treated differently in comparison to other races, National
Origins or ethnic groups.

20. Defendants actions Violate 42 U.S.C § 200-e 2(a), 5 U.S.C
§7116 (1), (2) (b)4.
23

Defendants actions also violate actions of the Texas Labor
Codes. 21.110,21.051,61.019, and 61.014
II. Second Cause of Action- National Origin Discrimination
31. Plaintiff incorporates each of the foregoing paragraphs.
32. Defendant discriminated against Plaintiff because of Plaintiff's
national origin, punished plaintiff because he spoke Spanish by making
him stay over an extra shift without pay of the Spanish skills when it
was not his turn to stay over and not letting him go to a preference shift
even though he had more seniority than another non-Spanish speaker
because of Plaintiffs race and National origin.
Plaintiff was treated differently in comparison to other races,
National Origins or ethnic groups.
33. Defendants actions Violate 42 U.S.C § 200-e 2(a),
5 U.S.C § 7116 (1), (2), b (4).
Defendants actions also violate actions of the Texas Labor Codes.
21.110,21.051,61.019, and 61.014

In addition, the Northern District of Texas undermined plaintiffs' Due
process, discrimination of National Origin claim and our constitution under
the 14 amendment. Defendants practices and/or policies violated plaintiffs 14
24

amendment right, under the equal protection clause. Also abridged the
privilege or immunity of plaintiff. He did not have the liberty of going home
when he had to stay, because he was a Spanish Speaker even though he was
not being paid for it and at times, would not have been his turn to stay but
had to stay because he was Spanish Speaker. In which included his liberty of
going home but could not under defendant's policy and/or practice. Plaintiff
was treated less favorably from other similar situated races. See article The
equal protection of the Laws "We now know that the equal protection to all
persons in the enjoyment of their natural and inalienable rights—especially
life, liberty, and property-and to do so equally. Defendants Practices
interfered with plaintiff's lively hood as well as liberty and in the pursuit to
happiness. When plaintiff had to stay over because he was Spanish speaker
without pay of his language skills instead of another non-Spanish speaking
person. This could have occurred on a holiday or not. Plaintiff would have
had to stay and be deprived of his liberty under Defendants practices and/or
policies.
See. Plaintiffs original petition. Ill Third Cause of Action- Plaintiffs Equal
protection Claim

34. Defendant Violated the plaintiff's 14th Amendment right. Defendant
treated Plaintiff different from other similar situated employees and
25

treated them favorably. Plaintiff was deprived of liberty when it was not
his turn to stay over because he was a Spanish speaker and was
prevented to go to another shift even though he had more seniority than a
non-Spanish speaker and was treated differently.
Therefore, for especially these reasons plaintiff asks respectfully for reverse the
Findings Conclusions, and Recommendations of the Northern district of Texas.

Jurisdiction
In addition, plaintiff implemented Breach of Contract on plaintiff's original petition.
Also asks the United States Supreme to address the 5th Circuit for proper jurisdiction of
this case and to respectfully reverse Findings, Conclusions, and Recommendation of the
Northern district. In addition, because this court the United States Supreme court has
jurisdiction because this case came out of a Federal question claim of the Law.
IV.

Fifth Cause of Action- Breach of Contract

35. The Policies and procedures of the City formed part of plaintiff's
employment contract. As a result of the city's discrimination. The plaintiff resigned
and was unable to receive a full pension retirement and/or opportunity, along with
the benefits from the city. Also, the Defendant breached the agreement between
defendant and plaintiff to pay plaintiff for his Spanish skills after he was tested.
Therefore, constitutes a breach of contract between Plaintiff and the city, In

26

addition a contract was implied because of the test that was given to plaintiff for the
Spanish pay, In which has damaged Plaintiff by depriving him and in which he was
entitled under his employment contracts, in which he sues. Plaintiff also
implemented the following below in plaintiffs amended petition.
Section 703 of the Civil Rights Act of 1964, 42 U.S.C. Sec. 20Q0e-2, provides:

"(a) It shall be an unlawful employment practice for an employer
"(1) to fail or refuse to hire or to discharge any individual, or otherwise to
discriminate against any individual with respect to his compensation, terms,
conditions, or privileges of employment, because of such individual's race,
color, religion, sex, or national origin; or

"(2) to limit, segregate, or classify his employees or applicants for
employment in any way which would deprive or tend to deprive any
individual 1**41 of employment opportunities or otherwise adversely affect
his status as an employee, because of such individual's race, color, religion,
sex, or national origin".
As mentioned, Defendant has discriminated plaintiff on basis of national
origin. Defendant discriminated plaintiff with connection to compensation
of Spanish pay. In addition to privileges plaintiff couldn't go to desired shift
and had to stay over when it was not his turn. Defendant deprived plaintiff
27

I

to go to another shift and there was an adverse effect on plaintiff.
i

i

!

The Northern District Court of Texas made an error in dismissing plaintiff's
discrimination claims based on national origin. Plaintiff clearly explained the
claim.

Defendants damages included disparate treatment, disparate impact, adverse
effect, and discrimination that Defendants practices had on plaintiff. That tied
into not being paid for being a Spanish speaker. In which all of these claims were
dismissed in error by the Northern District of Texas.

"The US. Supreme
court held in Griggs V. Duke Power Co. that disparate impact discrimination in
F

employment is covered by Title 7 of that Act. Defendant Knew it discriminated
plaintiff because plaintiff informed his supervisor that he was being discriminated.

!

In addition, he informed other superiors threw out the years about his Spanish pay.
Including HR. In which with their credentials should have known of the
discrimination that was occurring to plaintiff. In addition, it was so outrageous that
they cannot have any excuse.
28

"Griggs V. Power Co. was a landmark decision from the United States
Supreme Court because it recognized that barriers to equal employment
opportunity for minority groups and women need no be overt or intentional. Policies
practices, and procedures that appear neutral on their face may nonetheless have
an unjustifiably exclusionary affect on other groups who do not share the
/

characteristics of the dominant group. "
https://scholars.law.unlv.edu/cgi/viewcontent.cgi?article=1587&context=facpub

Under 703(a)(2) of the Civil Rights Act of 1964 (42 USC 2000e- 2 (a)(2)), which
forbids any employer to limit, segregate, or classify his employees in any way
which would deprive or tend to deprive any individual of employment
opportunities or otherwise adversely affect his employee status, because of
race, color, religion, sex, or national origin, even as modified by 703(h) of the
Act (42 USC 2000e-2(hh, which permits an employer to give and to act upon
the results of any professionally developed ability test provided such test, its
administration, or action upon the results, is not designed, intended, or used to
discriminate because of race, color, religion, sex, or national origin, an
employer is prohibited from requiring a high school education or passing of a
standardized general intelligence test as a condition of employment in or
transfer to jobs when (1) neither standard is shown to be significantly related
29

to successful job performance, (2) both requirements operate to disqualify
Negroes at a substantially higher rate than white applicants, and (3) the jobs
in question formerly had been filled only by white employees as part of a
longstanding practice of giving preference to whites." In plaintiff case he was
given a Spanish test and in which in Defendants practices or/policy deprived
plaintiff of employment opportunities as to go to a different shift during the
shift bids. Plaintiff was treated less favorable because of his race and national
origin. In addition, plaintiff had to stay over at times when it was not his turn
to stay over because he was a Spanish speaker. He was also never paid for his
language skills.
In addition, see. Griggs vs. Dukes Its described "Sec. 703. (a) It shall be an unlawful
employment practice for an employer
"(2) to limit, segregate, or classify his employees in any way which would deprive or
tend to deprive any individual of employment opportunities or otherwise adversely
affect his status as an employee, because of such individual’s race, color, religion,
sex, or national origin."
https://scholar.google.com/scholar case?case=8655598674229196978&q=allied+aviation+
national+origin+discrimination+Mar+2008+black+and+Hispanic+fuel+service+worker+cl
aimed+discrimination&hHen&as sdt=6,44
"In Griggs v. Duke Power Co.,33 the United States Supreme Court formulated the
adverse impact test for discrimination. Practices which were neutral on their face

30

could not be continued or maintained if they operated to "freeze" the status quo of
prior discriminatory practices. 34 Proof of intent was not necessary. The Griggs case
only required a showing that the practices impacted adversely upon a protected
class. Thus, even in the absence of discriminatory intent, facially neutral practices
which had an adverse impact on equal employment opportunity would not be
tolerated." Chiacana/o Latina/o Law ReviewAs mentioned before, plaintiff was
limited to move over to a preferred shift and had to stay over at times even though
it was not his turned to stay. Also was given a Spanish test and was never given the
test results or compensated for his language skill, etc. listed above. Defendant
caused an adverse effect on plaintiff because of race and national origin. "The
Spanish language is an integral part of Latinos' national origin and ancestry."
Plaintiffs ancestors are from a different origin therefore plaintiff is covered under
discrimination of national origin." The Supreme Court could acknowledge that
language minority status is so integrally related to national origin that
discrimination on the basis of language minority status is ipso facto discrimination
on the basis of national origin." Chiacana/o Latina/o Law Review

Defendant had prohibited practices. In addition, See. "§ 7-8 Discrimination Based
on Race, National Origin, or Religion, (b) Prohibited Practices (1.) Intentionally
discriminating against a member of a protected class; or (2.) Doing any act, or
establishing any employment practice or rule, that has a disproportionate effect on
a protected class." Mathew Bender. Employment in Texas, A Guide To Employment
31

Laws, Regulations, And Practices (5th ed. 2019) Employment
discrimination §7-8, 7-78 [a.]

The Texas Deceptive trade practices Act. violated Sec. 17.46 Deceptive Trade
Practices Unlawful, (a) False, misleading, or deceptive acts or practices in the
conduct of any trade or commerce are hereby declared unlawful, (b) the term false
misleading, or deceptive acts or practices" includes, but is not limited to, the
following acts(l) passing off goods or services of another; (2) causing confusion or
misunderstanding as to the source, sponsorship, approval, or certification of goods
or services; (5) representing that goods or services have sponsorship, approval,
characteristics, ingredients, uses, benefits, or quantities which they do not have
connection which does not;" In plaintiffs case, plaintiff was providing a service in
which was translating. Defendant was deceptive by giving plaintiff a test and not
paying him for the language skills. Therefore, defendant passed on the services of
language skills without plaintiffs approval without pay along with issues that came
along with it.

A. Unlawful Employment Practices
Like title 7 the TCHRA prohibits a broad range of employment practices
that are based on national origin. The statue provides in pertinent part:
Discrimination Based on National Origin, Religion, and other grounds § 24:4
32

"An employer commits an unlawful employment practice if because of....
national origin... the employer.
(1) Fails or refuses to hire an individual discharges an individual ,or
discriminates in any other manner against an individual in connection with
the compensation or the terms, conditions, or privileges of employment; or
(2)

Limits segregates or classifies an employee or applicant for employment in
a manner that would deprive or tend to deprive an individual of any
employment opportunity or adversely affect in any other manner the status
of an employee. As mentioned, Defendant has discriminated plaintiff on
basis of national origin. Defendant discriminated plaintiff with connection
to compensation of Spanish pay. In addition to privileges plaintiff couldn't
i

go to desired shift and had to stay over when it was not his turn. Defendant
deprived plaintiff to go to another shift and there was adversely affected
plaintiff.
Tex. Lab Code Ann. §21.05(West 2015) Further, the statue defines national
origin discrimination to included discrimination because of or on the basis
of the national origin of an ancestor.Id.§21110.
See. Franze, Texas Employment Law Revision 18 Volume 2 (2017) §24:4
B. Meaning of National Origin
1. National Origin of Ancestors
33

**

*»

Conclusion
For the foregoing reasons, this court should grant this petition and
issue a writ of certiorari to review the Northern District court of Texas
and to take proper Jurisdiction of the 5th circuit court of appeals
because this case is rising out of a Federal question claim of the Law.

Respectfully submitted,

Abel Belmonte
Pro se plaintiff
427 N. Patton,
Dallas, Tx 75203
(214)907-2800
Email: Abel.BelmonteO@gmail.com

35

